I
No. 20- 57^
In The
Supreme Court of the United States

Daniel Edward Cvijanovich,
Petitioner,
v.
United States Secret Service,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eighth Circuit

PETITION FORA WRIT OF CERTIORARI

filed
19 2020

Daniel Cvijanovich
2433 20th Ave S. Apt 305
Fargo, ND 58103
(701) 306-2447
danc636@gmail.com

RECEIVED
OCT 2 7 2020

QUESTIONS PRESENTED FOR REVIEW
In 2017, plaintiff Daniel Cvijanovich requested records pertaining to himself
from the United States Secret Service, pursuant to the Freedom of Information Act.
The Secret Service denied his request categorically, on the grounds that disclosing
the records could reasonably be expected to interfere with an enforcement
proceeding, 5 U.S.C. 552 (b)(7)(A). Pet. App. C.
Cvijanovich was the subject of federal criminal prosecutions in 2006 and
2007, in which the Secret Service was heavily involved. Pet.App. B, 2. Since his
release from prison in 2008, Cvijanovich has not been involved in any enforcement
proceedings. The Secret Service monitors Cvijanovich via periodic contact and
regards this monitoring as an “enforcement proceeding” exempting the agency from
disclosing any records. Id- For this, the agency relies on the 5th Circuit's decision in
Moorefield v. U.S. Secret Service. 611 F.2d 1021 (1980).
After Cvijanovich filed suit in the U.S. District Court of North Dakota, where
he resides, the Secret Service released some of his records, with heavy redactions
based on a variety of FOIA exemptions. Other classes of records continue to be
withheld categorically under the Moorefield exemption. Id., 3-4.
In addition to challenging the 5th Circuit's construction in Moorefield.
Cvijanovich also challenged the agency's use of exemptions (b)(5) (“inter-agency or
intra-agency memorandums or letters that would not be available by law to a party
other than an agency in litigation with the agency”) and (b)(7)(E) (regarding the
disclosure of law enforcement techniques and procedures that could reasonably be
expected to risk circumvention of the law). Cvijanovich argued that (b)(5) was
intended by Congress to apply to civil litigation with a government agency, whereas
the Secret Service is applying it to criminal prosecution. He argued that the (b)(7)
(E) redactions were too sweeping and required in camera review by the district
court, citing an example of one redacted document he had previously encountered
whole, which made no risky disclosures of techniques and procedures, as well as a

l.

publicly available document which describes in detail many of the techniques and
procedures the agency is trying to shield from him.
The district court rejected Cvijanovich's arguments, declined to conduct in
camera review, and granted the agency's motion for summary judgment. Pet. App.
B. Cvijanovich appealed to the 8th Circuit Court of Appeals, which affirmed the
District Court in a one paragraph opinion, without any independent analysis of the
arguments. Pet. App. A. Cvijanovich filed a petition for rehearing, pointing out that
the 8th Circuit panel had failed to conduct a true de novo review of the lower court's
ruling and asking it to do so. The panel denied the request for rehearing. Pet. App.
D.
The Questions Presented are'1. Does FOIA exemption (b)(7)(A) apply to the Secret Service's
monitoring of an individual, absent the existence of any actual
enforcement proceeding involving that individual?
2. Does FOIA exemption (b)(5) apply to memoranda and letters created in
a prosecutorial context, or only to those created in a civil litigation
context?
3. Does FOIA exemption (b)(7)(E) apply to interviews and psychiatric
evaluations when an agency's operational framework for that kind of
interview/evaluation is already described in public documents?
4. Is it an abuse of discretion for a district court to decline in camera
review in a FOIA case where the plaintiff has provided evidence that
at least one redacted record doesn't satisfy the exemption cited by the
agency?
5. Is it an abuse of discretion for an appeals court to write a too
perfunctory opinion when the standard of review is de novo?

ii

TABLE OF AUTHORITIES
5 U.S.C. 552(b)(5)....... .................................... ...................................

5-6

5 U.S.C. 552 (b)(7)(A)...........................................................................

3

5 U.S.C. 552 (b)(7)(E)................................. ................................. .......

4-5

Moorefield v. U.S. Secret Service, 449 U.S. 909 (Sup. Court, 1980)

3

Protective Intelligence & Threat Assessment Investigations^ A Guide for State and
Local Law Enforcement Officials, by Robert A. Fein & Bryan Vossekuil.................... 4
United States v. WeberAircraft Corp„ 465 U.S. 792 (Sup. Court, 1984)

.P*

Mi

5

TABLE OF CONTENTS
QUESTIONS PRESENTED........................

i

TABLE OF AUTHORITIES................ ........

m

PETITION FORA WRIT OF CERTIORARI

1

OPINION BELOW......................................

1

JURISDICTION..........................................

1

STATUTES INVOLVED............... ..............

1

STATEMENT.................. ............................

2

ARGUMENT.

3

CONCLUSION.

7

APPENDIX
A. COURT OF APPEALS DECISION
B. DISTRICT COURT DECISION
C. AGENCY DECISIONS
D. ORDER DENYING REHEARING

iv

PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully seeks a writ of certiorari to review the judgment of the
United States Court of Appeals for the Eighth Circuit.
OPINIONS BELOW
The opinions of the U.S. District Court for the District of North Dakota and
the 8th Circuit Court of Appeals in this matter are unpublished.
JURISDICTION
The Eighth Circuit entered judgment on May 29, 2020, and denied rehearing
on July 23, 2020. The Court has jurisdiction under 28 U.S.C. 1254(l).
STATUTES INVOLVED
The Freedom of Information Act, 5 U.S.C. 552
Section (b)(5) “.. .does not apply to matters that are inter-agency or intra­
agency memorandums or letters that would not be available by law to a party
other than an agency in litigation with the agency, provided that the
deliberative process privilege shall not apply to records created 25 years
or more before the date on which the records were reqsuested.”
Section (b)(7)(A) “. . .does not apply to matter that are records or information
compiled for law enforcement purposes, but only to the extent that the
production of such law enforcement records or information could reasonably
be expected to interfere with enforcement proceedings.”
Section (b)(7)(E) “.. .does not apply to matters that are records or information
compiled for law enforcement purposes, but only to the extent that the

1

production of such law enforcement records or information would disclose
techniques and procedures for law enforcement investigations or
prosecutions, or would disclose guidelines for law enforcement investigations
or prosecutions if such disclosure could reasonably be expected to risk
circumvention of the law.”
STATEMENT
In December of 2017, plaintiff Daniel Cvijanovich submitted a Freedom of
Information Act request to the United States Secret Service, asking for copies of all
agency records pertaining to himself. The Secret Service denied his request
categorically, citing FOIA exemption (b)(7)(A), ie that disclosure could reasonably be
expected to interfere with an enforcement proceeding. Pet. App. C. Cvijanovich
submitted an administrative appeal to the agency in which he pointed out that he
has not been the subject of any enforcement proceeding for many years. The Secret
Service denied this appeal. Id.
In October of 2018, Cvijanovich filed a Complaint in the U.S. District Court
for North Dakota, where he resides, asking the court to order the Secret Service to
disclose the records. In May of 2019, the Secret Service provided Cvijanovich with
709 pages of heavily redacted records. Pet. App. B, 3. The agency cited many
different FOIA exemptions to justify the redactions, including (b)(5), concerning
attorney-client privilege, work product, and deliberative process, and (b)(7)(E),
concerning sensitive law enforcement techniques and procedures. The Secret
Service continued to withhold other whole classes of records in their entirety, based
on the original (b)(7)(A) claim. The agency moved for Summary Judgment, which
the District Court granted in September of 2019.
Cvijanovich appealed the Summary Judgment to the Eighth Circuit, which
affirmed the District Court's ruling in a perfunctory one paragraph opinion on May
29, 2020, without addressing any of Cvijanovich's legal arguments about

2

exemptions (b)(7)(A) and (b)(5) or any of his analytical arguments about the
agency's application of (b)(7)(E).
ARGUMENT
FOIA exemption (b)(7)(A) provides that an agency may withhold “records or
information compiled for law enforcement purposes, but only to the extent that the
production of such law enforcement records or information.. .could reasonably be
expected to interfere with enforcement proceedings.” 5 U.S.C. 552 (b)(7)(A). Quite
simply, no enforcement proceeding exists or has existed for many years concerning
this plaintiff. The fact that the Secret Service continues to monitor Cvijanovich does
not constitute an enforcement proceeding. In 1980, the 5th Circuit got it wrong in
Moorefield v. U.S. Secret Service. 611 F.2d 1021. The court declined to hear
Moorefield's case at that time, over the objection of then Justice White, who had
this to say in his dissent from the decision to deny certeriorariIf Secret Service investigations, without limitation, qualify as enforcement
proceedings whether or not there is an adjudicatory proceeding pending or
imminent, then arguably many investigatory files of other law enforcement
agencies also qualify for exemption. Moorefield v. U.S. Secret Service. 449
U.S. 909 (1980)
As Justice White understood, this is an obvious misapplication of the Freedom of
Information Act as crafted by Congress. For 40 years, the Secret Service has gotten
away with it thanks to the judicial activism of the 5th Circuit. Most individuals
monitored by the Secret Service do not have the financial means to hire an attorney
to challenge the agency or the legal acumen to bring the challenge themselves. If
certiorari is denied here, it will probably be decades more before anyone else is able
to make it to this point. The meaning of the statute is clear and the agency's misuse
of the statute is equally clear. It is time for the court to rule on this issue.
It is important to note that the agency does not need (b)(7)(A) to assist in

3

keeping the President or any other protectee safe. If disclosure of records to
Cvijanovich or anyone else could reasonably create any danger to the President,
then exemption (b)(7)(E) is available. This exemption allows an agency to withhold
records that would “disclose techniques and procedures for law enforcement
investigations or prosecutions.. .if such disclosure could reasonably be expected to
risk circumvention of the law.” 5 U.S.C. 552 (b)(7)(E). Clearly, FOIAdoes not compel
the Secret Service to share any details about the security measures it uses to keep
people safe. But does this exemption extend to the kinds of records at issue here? As
far as can be ascertained, given the heavy redactions, the answer is no. Most if not
all of the agency's (b)(7)(E) claims surround evaluations and opinions related to
Cvijanovich's mental health and threat level. Pet. App. B, 9*11. Yet the Secret
Service has made publicly available a report that details its techniques and
procedures for interviewing individuals and assessing their threat levels. This
report, Protective Intelligence & Threat Assessment Investigations:A Guide for
State and Local Law Enforcement Officials, is available on the Department of
Justice website, at https7/w ww.neirs .gov/pdffiles 1/nii/179981.pdf. Id., 10. When an
agency's framework for conducting interviews and evaluating threats is publicly
available, there is no additional risk of circumvention of the law posed by disclosing
interview and evaluation records about a particular individual. Exemption (b)(7)(E)
therefore does not apply to this or similar situations. The court should rule on this
issue to provide guidance to both agencies and lower courts about the proper use of
this FOIA exemption.
Cvijanovich is not in a position to say that all of the Secret Service's (b)(7)(E)
claims are unjustified, but he has shown that at least one of them is. USSS 405*424
is a psychiatric evaluation of Cvijanovich written by a consulting psychiatrist, Dr.
Robert Phillips. Cvijanovich had previously had access to this record as part of the
discovery process in his 2007 trial, and he claims by affidavit that the report
contains no information that would be useful in subverting the agency's security

4

measures to carry out an attack. Pet. App. B, 8. This is a common sense claim and
an indication that the agency's use of exemption (b)(7)(E) is too sweeping. In a
situation like this, the only way to protect the public's right to information is for the
district court to conduct an in camera review of the records and rule on which
records, if any, are covered by the exemption. The district court's failure to conduct
in camera review is therefore an abuse of its discretion. The Court should make a
clear ruling that in camera review is necessary in a FOIA case when evidence is
given that at least one record has been inappropriately withheld or redacted under
a particular exemption.
FOIA exemption (b)(5) applies to “inter-agency or intra-agency
memorandums or letters that would not be available by law to a party other than in
agency in litigation with the agency.” 5 U.S.C. 552 (b)(5) As this court explained in
United States v. Weber Aircraft Corp.. 465 U.S. 792, 799-800 (1984), “The House
report [on the FOIA] states that Exemption 5 was intended to allow an agency to
withhold intra-agency memoranda which would not routinely be disclosed to a
private party through the discovery process in litigation with the agency, (emphasis
added) The plaintiffs understanding, based on this decision and the Congressional
record surrounding FOIA, is that the purpose of this exemption is to prevent
individuals involved in civil litigation with an agency to use FOIA as an end run
around the civil discovery process. The exemption does not apply to letters and
memoranda created in reference to a criminal prosecution. Yet this is how the
Secret Service uses the exemption in this case. Every one of its (b)(5) claims relates
either to the criminal prosecution of Cvijanovich that occurred in 2007 or to a
contemplated prosecution in 2006 that is no longer permitted due to statutes of
limitations. Pet. App. B, 7-9. The agency has a few lower court decisions to support
its application of (b)(5) to criminal prosecutions, but nothing from this court. This
case provides an opportunity for the court to make explicit what it strongly implied
in Weber, and which is supported by the Congressional record stirrounding FOIA:

5

Exemption (b)(5) does NOT apply to criminal prosecution, but only to civil
litigation.
The standard of review for an appeals court reviewing a grant of summary
judgment is de novo. Yet, in its one paragraph decision, the 8th Circuit did not
discuss any of the above arguments, not even to reject them and agree with the
district court’s reasoning. The district court's order granting summary judgment is
15 pages long. After the 8th Circuit issued its single paragraph opinion affirming
summary judgment, the plaintiff filed a petition for rehearing asking the court to
discuss his arguments surrounding FOIA exemptions (b)(5), (b)(7)(A), and (b)(7)(E),
as well as the need for in camera inspection of the (b)(7)(E) claims. This the 8th
Circuit dismissed with a single sentence. The plaintiff understands that all courts
encounter a large number of frivolous and time wasting claims, and in those cases a
terse dismissal is appropriate. Is this such a case? Justice White, for one, wouldn't
have thought so. Neither apparently did the Secret Service, any of its attorneys, or
Judge Senechal. The 8th Circuit ignored its duty to conduct a true de novo review in
this case, and this is an abuse of its discretion. The court should find it so.

6

CONCLUSION
This case provides the court an opportunity to clarify the proper use and the
misuse of three different FOIA exemptions, as well as provide guidance to lower
courts about the use of in camera review in FOIA cases. The plaintiff humbly asks
that certiorari be granted.
Respectfully submitted this 19th day of October, 2020.

/

Daniel Cvijanovich
2433 20th AveS. Apt 305
Fargo, ND 58103
(701) 306-2447
danc636@gmail.com

7

